Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




MIGRANT HEAD START GRANTEES:
PERSPECTIVES AND CHALLENGES




               DECEMBER   1993
                      OFFICE OF INSPE~OR                   GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECI’IONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections) that focus on issues of concern to the Department,

the Congress, and the public. The findings and recommendations contained in these inspection

reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,

and effectiveness of departmental programs. This report was prepared in the San Francisco

regional office under the direction of Kaye D. Kidwell, Regional Inspector General, and

Paul A. Gottlober, Deputy Regional Inspector General. Project staff included:


Brad Rollin, Project Leader

Elizabeth Bell

Ellen Kotler

Donald Loeb

Jennifer Mallen

Brian Pattison

Alan Levine, Program Specialist, Headquarters


For additional copies of this report, please contact the San Francisco office at (415) 556-6830.

Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENEML




MIGRANT HEAD START GRANTEES:
PERSPECTIVES AND CHALLENGES




           DECEWER   1993   OEI-09-91-00761
              EXECUTIVE                         SUMMARY

PURPOSE

This inspection identified and assessed the expansion   experiences   and challenges   of
selected migrant Head Start grantees and delegates.

BACKGROUND

At the Federal level, the Department  of Health and Human Services’ (HHS)
Administration for Children and Families (ACF) is responsible for administering Head
Start. The ACF awards grants to a public or private nonprofit agency (called a
grantee) to operate a Head Start program. A grantee may contract with one or more
other public or private nonprofit organizations in the community (called delegates) to
run all or part of its Head Start program. The Migrant Programs Branch within
ACF’S Head Start Bureau oversees all migrant grantees. Nationally, 28 grantees serve
approximately 28,000 migrant children with a total annual budget of $88.8 million.

Migrant Head Start provides valuable services to a population that otherwise might
not receive them. Migrant families’ lives are complicated by their transitory nature,
language and cultural barriers, and inexperience “navigating the system.” Migrant
Head Start grantees provide children with a safe place to learn while their parents
work. They ensure that each child’s health, nutrition, and other basic needs are met.
Like non-migrant (hereafter referred to as “regular”) Head Start grantees, migrant
grantees also are required to identify and address the needs of the entire family.

Migrant grantees are very different from regular Head Start grantees. They serve a
broader age range of children--including infants and toddlers--who require different
facilities, equipment, and staff skills. Grantees must be able to provide setices for
children whose parents work 10 to 14 hours per day and 6 to 7 days per week. In
addition, grantees must provide services in a shorter timeframe, because families may
not remain in the program for more than a few weeks before leaving the area.

Both the Administration and Congress are committed to expanding Head Start. Since
Fiscal Year 1990, Head Start total funding has increased more than $1 billion, adding
almost 300,000 children. Based on concerns about grantees’ ability to handle
expansion, ACF, the Assistant Secretary for Management and Budget, and the
Assistant Secretary for Planning and Evaluation requested that the Office of Inspector
General (OIG) review the implementation and status of Head Start expansion. These
Department officials were concerned that rapid expansion might jeopardize the quality
of services that grantees provide to children and families. The Head Start Migrant
Programs Branch Chief expressed similar concerns about the impact of expansion on
grantees that serve migrant children and families.




                                            i
This report is one in a series prepared by the OIG on Head Start expansion. Two
other reports in the series, “Head Start Expansion: Grantee Experiences”
(OEI-09-91-O0760) and “Evaluating Head Start Expansion through Performance
Indicators” (OEI-09-91-00762), describe regular Head Start grantees’ experiences with
expansion.

During September 1992, we conducted on-site visits and structured intemiews with six
migrant Head Start grantees and delegates whose enrollment totals 28 percent of all
children in migrant Head Start nationally. We selected the grantees and delegates
based on the size of their expansions in 1990 and/or 1991. During the interviews, we
asked grantees to describe their experiences and opinions about operating a Head
Start program and their predictions about the future. Our goal was to obtain
information that would provide a “snapshot” of selected migrant grantees’ ongoing
operations as well as their experiences with expansion. In response to ACF’S
comments on the draft report, we also conducted brief follow-up interviews with the
grantees and delegates in August 1993 to obtain additional information about their
facilities. We did not conduct a comprehensive management or file review to verify
the accuracy of the grantees’ opinions and predictions. Nevertheless, we believe our
findings will offer policymakers valuable information about major issues and problems
facing migrant grantees.

FINDINGS

The following findings reflect the experiences and opinions of the six migrant grantees
that we interviewed,

Some Herd Startper$onnancereqtiementr muy not be approphte for migrantgrantees

The sampled grantees expressed concerns about many of the major performance
standards, including parent involvement, home visits, medical and dental screens, and
enrollment and education. Although ACF recognizes that the standards should not be
strictly interpreted for migrant grantees, specific guidelines have not been developed
and disseminated.

Some of theproposed infantand todkilerprogmm
                                           standard maybe u.nreai’htic

Some migrant grantees may not be able to comply with several of the requirements
contained in the proposed Head Start standards. Grantees are particularly concerned
about the standards concerning child-to-staff ratios and medical examinations. The
ACF is aware of this and will consider the grantees’ concerns and comments before
the standards are finalized.




                                           ii
LM@ed jimdingand unrehhbletif~tion          about the migrantpopdahn     @IU@@

hiiader   grantees’   abilityto plan

All sampled grantees reported that delayed expansion funds inhibited planning, forced
loans, and caused carry-over balances. In addition, the grantees experienced planning
problems because of the lack of demographic information about migrants and the
migrant stream.




The six grantees described difficulties acquiring adequate and affordable facilities,
providing transportation for children, hiring qualified staff, and meeting the Federal
match requirement. The grantees overcame these problems but are concerned that
the problems will be exacerbated with future expansions.

Gmntees are concernedthatongoingandfdure changesin the natureof m&rantwok
may hindertheu abilityto serve migrantfamilies

New job opportunities and conflicting agency definitions of the term “migrant” may
present barriers to serving migrant families in the future.

Sarnpkdgranteescitedprobkms withthe on-sitereviewprocm, the statisticalreprting
req&men@ and the MigrantRograms Branch

Some grantees have a strained relationship and difficulty communicating with the
Migrant Programs Branch.

RECOMMENDATION

7%eACF should includeprobkns specificto the migrantprogramin the reviewof Head
start%management

In the OIG report “Evaluating Head Start Expansion through Performance Indicators,”
we recommended that the Secretary convene a task force to review ACF’S
management of the Head Start program. On June 11, 1993, the Secretary appointed
the Advisory Committee on Head Start Quality to conduct an in-depth study of the
Head Start program with particular attention to issues identified in the OIG reports
“Head Start Expansion: Grantee Experiences” and “Evaluating Head Start Expansion
through Performance Indicators.” The Secretary asked the Advisory Committee, which
is chaired by the Assistant Secretary for Children and Families, to develop
recommendations to improve and strengthen the program in a time of expansion.

As a result of this inspection, we recommend that the Advisory Committee include
migrant Head Start in the examination. Because the migrant program is unique, the
review also should:


                                            ...
                                            111

      determine whether separate performance     standards for migrant programs
      would be appropriate,

      assess the cost and potential impact of the proposed infant and toddler
      program standards on both ACF and grantees,

      determine whether funding and expansion cycles should be tailored to migrant
      grantees,

       address the changing role of migrant work and whether changes in ACF’S
       definition of “migrant” are necessary,

       determine when it would be appropriate   for migrant grantees to purchase
       property,

       evaluate the timing of the PIR process and the accuracy of PIR data,

       evaluate the role and effectiveness of the Migrant Programs Branch, and

       identify other areas where ACF should grant flexibility to grantees who are
       experiencing difficulties serving migrant ~amilies.

AGENCY COMMENTS AND OIG RESPONSE

We received written comments on the draft report from ACF.        The ACF noted that
the migrant program would be reviewed     as part of the overall review of the Head
Start program ordered by the Secretary.    The full text of ACF’S comments appears in
the appendix. In response to ACF’S comments, we conducted follow-up interviews
with grantees to obtain additional information about their facilities. The final report
incorporates information from the follow-up interviews, including more detail about
the facility purchase issue. We also made technical corrections to the findings,
clarified that the report is based on the grantees’ opinions and experiences, and
modified the recommendation to ensure that it more accurately describes the issues
that the Head Start task force should study.




                                           iv
                     TABLE                OF CONTENTS
                                                                                                PAGE


EXECUTIVE suMMf=Y
                                                                                                       1
INTRODUmON              .................................................
                                                                                                       7
FINDINGS        ......................................................
                                                                                                         7
 �    Performance     Requirements     for Migrant Grantees.......................
                                                                                                       .8

  �   Infant and Toddler Progam Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                                                                                                          8
  �   Grantees’ Inability to Plan.... ....................................
                                                                                                    ..10

  �   Expansion Problems and Concerns . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                                                                                                      . 12

  �    Changing Nature ofMigrantWork    ................................

  � On-Site Review Process, Statistical Reporting Requirements,                                      . 12
    and the Migrant Programs Branch . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                                                                                                     . 15
 RIZOMMENDAnON . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

 APPENDK.           ACFComments
                            INTRODUCTION

PURPOSE

This inspection identified and assessed the expansion experiences and challenges of
selected migrant Head Start grantees and delegates.

BACKGROUND

Head Start operates on the premise that children are best prepared for success in
school when they and their parents participate in a comprehensive program that
addresses their educational, economic, social, physical, and emotional needs. In
addition to providing children with classes and health services, Head Start addresses
the needs of the entire family.

lhe Head StartI?ogram

Head Start is a child development program funded primarily by the Federal
government. The Administration for Children and Families (ACF) is responsible for
administering Head Start. At the headquarters level, ACF’S Head Start Bureau
provides leadership and develops legislative and budgetary proposals for Head Start
management and operations. In each regional office, ACF’S Head Start and Youth
Branch monitors all Head Start programs, except migrant and Native American
programs, which are monitored by branches within headquarters.    According to ACF,
Head Start served approximately 622,000 children with Federal support of $2.2 billion
in Fiscal Year (FY) 1992.

Head Start programs are community-based, so agencies can respond to local needs
and coordinate with other community organizations. As a result, program options,
locations, and hours vary. The Federal government awards grants to a public or
private nonprofit agency (called a grantee) to operate a Head Start program. A
grantee may contract with one or more other public or private nonprofit organizations
in the community (called delegates) to run all or part of its Head Start program. For
the purposes of this report, we will refer to both grantees and delegates as “grantees”
unless specific differences need to be noted.

Head Start programs consist of four major components: health, education, social
services, and parent irzvolvenzent. Specific performance standards, which have been
published   in the Code of Federal     Regulations,   require   among other things that
grantees:

  �    develop   children’s intellectual   skills by encouraging   them to solve problems,

 c     provide children medical and dental examinations,



                                                 1

 �      offer children nutritional meals and snacks, and

 �	     identi@ families’ social service needs and work with other community     agencies
        to meet those needs.

All grantees must comply with the performance standards. In addition, ACF has
issued guidance material which elaborates on the intent of the performance standards
and provides methods and procedures for their implementation.     The guidance
material, however, is not mandated.

Mi~nt    Head Start

In 1969, Congress funded the Indian and Migrant Programs Division (IMPD) to
separate Native American and migrant Head Start from regular Head Start
administration. In 1984, IMPD split into two separate branches. Today, ACF’S
Migrant Programs Branch oversees all migrant Head Start grantees. Nationally,
28 grantees serve approximately 28,000 migrant children with a total annual budget
of $88.8 million.

The ACF limits eligibility for migrant Head Start to families

        ...with children under the age of compulso~ school attendance who
        change their residence by moving from one geographic location to
        another, either intrastate or interstate, within the past 12 months, for the
        purpose of engaging in agricultural work that involves the production
        and hawesting of tree and field crops and whose family income comes
        primarily from this activity [45 CFR 1305.2(1)].

Migrant grantees may administer hornestate and/or upstream Head Start programs.
Homestate grantees provide services from 6 to 9 months per year in what is
considered a migrant family’s home State. Upstream grantees provide services for
3 to 7 months to families as they travel in search of agricultural work.

Migrant Head Start provides valuable services to a population that might not
otherwise receive them. Migrant families face numerous barriers to obtaining services
on their own. Their lives are complicated by their transitory nature, language and
cultural barriers, and inexperience “navigating the system.” Often they are unable to
obtain services such as housing assistance and Medicaid, because they are not
residents of that State or locality. Migrant Head Start addresses these problems and
more. Grantees provide children with a safe place to learn while their parents work.
They ensure that each child’s health, nutrition, and other basic needs are met. Like
regular Head Start, migrant grantees also are required to identify and address the
needs of the entire family.




                                             2

Migrant Head Start programs face unique challenges.        For example:

        Grantees serve children O to 6 years old, compared to regular Head Start
        grantees who serve primarily 3- to 5-year-olds. Serving infants and toddlers
        requires different facilities, equipment, staff skills, and more staff per child.

        Grantees sometimes must move their facilities if the migrant stream changes
        due to weather or crop conditions,

        Grantees often must provide services such as health screenings and social
        sefice referrals in a shorter timeframe because of the short program year and
        the fact that families may not remain in the program for more than a few
        weeks.

        Because of the nature of agricultural work, grantees often must provide services
        for 10 to 14 hours per day and 6 to 7 days per week.

        Grantees must have qualified, bilingual staff to serve migrant families
        effectively.

        Grantees must heir) families obtain services--such as Medicaid and State or
        local social service~--that are difficult to arrange because of migrant families’
        transitory nature.

To assist with planning, some grantees use the Department of Education’s Migrant
Student Record Transfer System (MSRTS). The MSRTS is designed to track school-
age children through the migrant stream. Migrant Head Start grantees may find
MSRTS data useful when attempting to determine how many families will enter their
service areas during a particular year.

l%posed Standard%
                for Infant$,T&ikKs, and l?egnant Women

In June 1990, the Department issued a Notice of Proposed Rulemaking specifying
requirements that govern the operation of Head Start programs serving infants,
toddlers, and pregnant women. Essentially, the proposed regulations are intended to
ensure quality sewices and require that:

  �	    grantees maintain low child-to-staff ratios for toddlers and infants. The ratios
        vary depending upon the age of the children and how many are in each class.
        The lowest ratio is 3-to-1, for children less than 2 years old in a classroom of
        6 children or less;

   �	   grantees obtain physical exams for infants and toddlers at ages 1 month,
        2 months, 4 months, 6 months, 12 months, 15 months, 18 months, 24 months,
        and 36 months;



                                               3

  �	   each teacher obtain a Child Development     Associate credential to serve infants
       and toddlers within 2 years;

  �    each grantee provide 40 hours of pre-semice training to all teachers’ aides; and

  �	   grantees adapt other health, education, nutrition, social services, and parent
       involvement requirements, as appropriate, to meet the unique differences of
       serving infants, toddlers, and pregnant women.

Head, Stat Expansion

Both the Administration and Congress are committed to expanding Head Start. The
Head Start Supplemental Authorization Act of 1989 and the Dire Emergency
Supplemental Appropriation of 1990 marked the beginning of expansion for all
grantees and provided funding for the first two expansions. Since FY 1990, Head
Start total funding has increased more than $1 billion, to an FY 1993 total of
$2.779 billion. In addition to the funds that were allocated for expanding enrollment,
ACF set aside approximately $612 million for, among other things, quality
improvement, salary enhancement, cost-of-living increases, and training and technical
assistance improvement.

The ACF allocated expansion funds differently for migrant grantees than for non-
migrant programs. Although ACF allocated funds differently for each expansion, in
general, it allocated funds (1) to existing grantees in proportion to each grantee’s
overall budget, (2) for grantees to compete to serve previously unsemed areas, and
(3) to existing grantees based on a specific area’s need, The following chart illustrates
the migrant Head Start program’s first 3 years of expansion:

                  MIGRANT HEAD START EXPANSION,                  1990-1992
                                                                                1

                                          FundsAllocatedto:
               Fiscal
    Expand
       Improve

                                               Program
       Provide

                                                                    Cost-of-Living

               Year
     Enrollment
        Quality
             Adjustments

               1990
     $7,515,523
         None
                 None


               1991
     $9,766,305
       $3,723,636
            $117,522

               1992
     $2,422,430
       $1,720,897
            $182,418


           ~TAL          $19,704S8
        $5,444933
             $299,940

          &


MigrantI?ogramsBranchUvemigti

The Migrant Programs Branch monitors compliance with Head Start           performance
standards primarily by conducting on-site reviews. During site visits,   review teams
assess compliance with the performance standards using the On-Site       Performance
Review Instrument (OSPRI). The Human Services Reauthorization            Act of


                                            4
1990 amended the Head Start Act and requires that ACF review each grantee or
delegate at least once every 3 years to measure compliance with the performance
standards. The Head Start Improvement Act of 1992 requires that ACF also review
each new grantee or delegate after its first year and conduct follow-up reviews of all
grantees when appropriate.

In addition to conducting on-site reviews, ACF requires each grantee to report
performance data annually using the Program Information Report (PIR). The PIR
contains data that ACF can use to assess individual grantee and overall program
performance.

Concerns about Expansibn

The ACF, the Assistant Secretary for Management and Budget, and the Assistant
Secreta~ for Planning and Evaluation requested that the Office of Inspector General
(OIG) review the implementation and status of Head Start expansion. Since migrant
grantees were not included in the other OIG studies on expansion (see the following
paragraph), the Chief of the Migrant Programs Branch requested that we conduct this
inspection to assess their experiences.

This report is one in a series prepared by the OIG on Head Start expansion. “Head
Start Expansion: Grantee Experiences” (OEI-09-91-00760) used interviews to describe
the experiences of regular Head Start grantees and ACF staff during the 1990 and
1991 expansions. According to the grantees, expansion posed problems for them in
such areas as child enrollment, facility acquisition, staffing, transportation, and social
semices. In a companion report, “Evaluating Head Start Expansion through
Performance Indicators” (OEI-09-91-00762), we assessed the impact of expansion on
regular grantees using file reviews and selected indicators. While we did not find any
statistically significant difference in grantee performance as a result of expansion, we
found that the level of grantee performance as measured by our indicators was
considerably lower than the level of performance reported by grantees and published
by ACF. Because of inadequate grantee record keeping, the lack of specificity in the
Head Start performance standards, and the fact that many grantees disregard ACF
policy guidance, we were unable to determine if the program and performance data
weaknesses that we found reflect serious deficiencies in the quality of services
provided by Head Start.

METHODOLOGY

We selected three migrant grantees and three delegates based on the size of their
expansion in 1990 and/or 1991. To establish the selection brackets, we divided the
amount of each grantee’s expansion by its total budget. We divided the grantees and
delegates into thirds based on the resulting percentage of expansion--small, medium,
and large expansion--and selected one from each bracket. In order to achieve a fairly
representative sample, additional selection criteria included geographic location and
the overall size of the program. The total funded enrollment of the six grantees was


                                             5
approximately  7,800. This represents   28 percent   of all children   enrolled   in migrant
Head Start nationally.

During September 1992, we conducted on-site visits and interviews with each migrant
Head Start program director and other appropriate staff. For the delegates in our
sample, we also conducted interviews with their parent grantees. At each site, we
visited the facility and several migrant campsites. In addition, we briefly examined the
grantee’s records and file maintenance. During the interviews, we asked grantees to
describe their experiences and opinions about operating a Head Start program and
their predictions about the future. Our goal was to obtain information that would
provide a “snapshot” of six migrant grantees’ ongoing operations as well as their
experiences with expansion. In response to ACF’S comments on the draft report, we
also conducted brief follow-up interviews with the grantees and delegates in August
1993 to obtain additional information about their facilities.

We did not conduct a comprehensive management or file review to veri~ the accuracy
of the grantees’ opinions and predictions. Nevertheless, we believe our findings will
give policymakers valuable information about major issues and problems facing
migrant grantees.

We conducted this inspection in accordance with the QwUy Stan&r&for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                             6

                                       FINDINGS


7he folkwvingjindingsreflectthe experiencesand ophziimsof the six mipnt granteesthat
we inkwiewed

SOME HEAD START PERFORMANCE REQ UIREMENTS                           MAY NOT BE
APPROPRIATE FOR MIGRANT GRANTEES

The six migrant grantees that we visited have difficulty meeting some of the Head
Start performance requirements because of the short program year, large client
turnover, and varied ages of enrolled children. In general, grantees believe that the
performance standards should be flexible and take into account the length of the
school year and the short period of time that a family is involved with the program.
The grantees expressed concerns about several of the major performance standards,
including parent involvement, home visits, medical and dental screens, and enrollment
and education:

Parent Involvement       All six grantees indicated that they have difficulty meeting the
parent   involvement   requirements.    Long work days and little time off prevent parents
from becoming involved with centers. The grantees expressed frustration with their
inability to get parents involved. One grantee stated, “We realize that there are limits
to what we can reasonably expect when parents are working hard in the fields for
12 hours a day and then have to go home and feed and bathe their kids. Only about
3 to 4 percent of parents volunteer in the centers.”

Home Visits: Grantees described particular problems meeting ACF’S home visit
requirement. Several factors present difficult barriers for grantees attempting to
complete the two required home visits:

   �	    families may be in the program only briefly, so it maybe    difficult to complete
         home visits before a family withdraws;

   �	    migrant programs run full-day for fewer months, so there is less time in the day
         to do home visits;

   �	    high enrollment turnover increases the number of home visits that grantees
         need to complete overall; and

   �	    some parents don’t have time or are too tired to participate in home visits
         because of their long workdays.

Medieal and Dental %reenx In general, grantees--particularly those who operate
upstream programs--try to complete health and dental screens within 30 days rather
than the 90 days recommended in ACF’S guidance on the performance standards.



                                               7

Two grantees questioned whether they should have the same health and dental
screening requirements for infants and toddlers. “Toberequired   toensure thata
6-week-old child receive adental screen doesn’t make sense~’ said one grantee.

Enrollment and Education      Thenumber of families inagrantee’s    sefice area
fluctuates throughout the season. This causes problems maintaining consistent
enrollment, class sizes, and average daily attendance. One grantee suggested that
ACF allow grantees flexibility to overenroll by as much as 100 percent during certain
parts of the program year to compensate for underenrollment during other parts of
the program year. Another grantee recommended that ACF use a formula to prepare
budgets and tabulate average daily attendance that is based on the sum of children
who attended the program each day rather than the funded enrollment.

The ACF Migrant Programs Branch recognizes that migrant grantees experience
difficulty meeting some performance standards. Because of this, branch staff are
flexible when determining if a grantee is in compliance with certain performance
standards.

SOME OF THE PROPOSED INFANT AND TODDLER                     PROGRAM
STANDARDS MAY BE UNREALISTIC

Grantees expressed concerns about the proposed standards for infants, toddlers, and
pregnant women. Three grantees expressed concerns about the lower child-to-staff
ratios. One grantee stated, “We need to get the children out of the camps during the
day. It’s safer to be with us even if our facility doesn’t meet child care licensing
standards than if they stayed in the camp, unsupemised.”

In addition, the grantees believe that the Child Development Associate (CDA)
credential requirement for teachers to serve infants would compound their ongoing
problems hiring staff. “Requiring a CDA may make it impossible to hire people who
will work in a summer program at minimum wage,” said one grantee. Two grantees
argued that the strict physical exam schedule for infants and toddlers was prohibitive.
One grantee stated, “There are so many physicals required. Medical exams for infants
are important, but who’s going to pay for this?”

The ACF is currently evaluating the proposed standards based on comments it
received on the Federal Register publication. Some of the comments reflect the
concerns of the migrant grantees. The ACF will take these concerns into
consideration as it develops the final rule.

DELAYED FUNDING AND UNRELIABLE INFORMATION ABOUT THE
MIGRANT POPULATION FREQUENTLY HINDER GRANTEES’ ABILITY
TO PLAN

The six grantees described problems similar to regular Head Start in planning for
expansions and administering services. Because of the unique nature of their


                                           8
programs, however, delayed expansion funding and poor demographic information
make even the simplest planning a challenge.

All sixgranteesreportedthat&layed qansion funds ihhibitedpkmningforced kxm$
and causedcany-overbalances

Congress determines the timing of expansion proposals and awards and bases it on the

regular Head Start program year. The ACF does not alter the cycle for migrant

grantees’ who administer off-season--such as summer-long--programs.    Migrant

grantees are required to submit expansion and other grant proposals in March and

April. They receive their funds in August or September, which, for some programs, is

the middle or end of their school year. As a result, three grantees had carry-over

balances during expansion, and two grantees had to secure loans in order to open on

time. Grantee comments included:


  �	   We have to start planning more than a year in advance. This is too
       early for migrant programs. There can be major changes with the
       migrant population in a short time frame.

  .	   The timing of the funds is atrocious, as the money comes in August or
       September. This is too late--our program starts in June.

  .	   If we can’t get funded in a more timely manner, we may not accept
       future expansions after 1993.

None of the grantees experienced any difficulty obtaining ACF’S approval for carry-
over balances.

% lackof demographicinformationabout rnigrantiand the migrantstreamcauses
pkmnihgproblemsfor allsix grantetx

Grantees are responsible for estimating the number of migrant children who will be in
their area in order to plan their program years and apply for expansion. They
sometimes rely on growers and migrant team leaders to give them any available
information about the number of migrants who will be in the area. These sources are
informal and are not always able to provide data on children. Grantees tend to
estimate future needs based on prior years’ experiences. One grantee stated, “We
open with a guess, and we close when we are no longer cost-effective. We try to keep
track of the pregnant women, and we do some averaging.”

Grantees find Migrant Student Record Transfer System data of limited use for
planning, because (1) it is not up-to-date, (2) its definition of migrant is different from
Head Start’s, and (3) it tracks only school-aged children. Grantees believe the Federal
government should create a national database among all migrant agencies. This would
allow grantees to plan 3 to 5 years in advance.



                                             9

SAMPLED MIGRANT GRANTEES EXPERIENCED SOME OF THE SAME
PROBLEMS WITH EXPANSION AS REGULAR HEAD START GRANTEES

The OIG report, “Head Start Expansion: Grantee Experiences; described the
difficulties that non-migrant Head Start grantees encountered during expansion. The
six migrant grantees described similar--and sometimes greater--problems acquiring
adequate and affordable facilities, providing transportation for children, hiring
qualified staff, and meeting the Federal match requirement.

Facilities Migrant grantees face the following barriers to facility acquisition:
availability, affordability, inability to purchase, timing of expansion awards, and
licensing. In addition, community prejudice, the transitory nature of the migrant
population, and different licensing requirements for facilities serving infants and
toddlers have made these problems more difficult to overcome. “We need a break
from the laws,” said one grantee. “Right now we can’t serve infants and toddlers in
the same building as preschoolers.”

Five of the six grantees expressed a desire to purchase property for their centers,
which will be possible under the provisions of the Head Start Improvement Act of
1992. “Head Start has renovated more churches than we can count,” said one grantee.
Grantees recognize that weather and other factors can affect the migrant streams, but
suggested purchasing facilities in areas with consistent migrant streams and using
portables in outlying areas. Grantees further indicated that they would be cautious
when using the purchase option. They would complete long-term demographic studies
to be sure that the migrant stream would remain consistent and the facility would be
cost-effective.

Grantees cited examples of when purchasing facilities would be appropriate    and cost-
effective:

  ~	   One grantee indicated that it would share purchased facilities with regular
       Head Start, which would allow it to offer families integrated “one-stop
       shopping” for services. This grantee has never had to close a facility.

  �	   One grantee spent $115,000 to renovate a rented center.    It has not had to
       close any of its centers in 10 years.

  *	   One grantee has had to close facilities early despite families needing the
       services because the landlord insists.

  *	   One grantee runs dozens of centers that have never had to move, even after
       15 years.

Transportation:  Providing adequate transportation is a problem for several grantees.
Expansion has resulted in some one-way bus rides in excess of 1-1/2 hours. Grantees
described problems with bus insurance and licensing when they cross State lines and


                                           10
when bus rides are very long. In addition, grantees have difficulty hiring and retaining
qualified bus drivers because of their long hours, short program year, and inability to
compete with public school wages. One grantee summarized the transportation
challenge: “Qualified bus drivers are hard to find. They are paid more in public
school, and they don’t have to start work at 4:30 a.m.”

Staffing Migrant grantees face greater problems hiring and retaining qualified staff
than non-migrant programs. Long hours, short school years, low salaries, and
inadequate benefits have resulted in severe staffing problems for several of the
grantees. Grantees need educated staff who are bilingual, able to handle infants,
toddlers, and youngsters, and able to perform multiple duties. Although their salaries
are comparable to public schools, grantees believe supplemental compensation is
necessary to recruit and retain staff who have these additional skills.

Matching Funds: While grantees have been able to obtain some matching funds, they
are not always able to achieve Head Start’s 20 percent match requirement. Most of
the six grantees have obtained waivers from the Migrant Programs Branch that allow
them to match at a lower rate. Two grantees are able to use State funds or donated
property to meet the 20 percent Federal match requirement. The other grantees have
limited success relying on donated services and volunteers. Migrant grantees have
difficulty collecting contributions, because they often are viewed as outsiders by the
local community, and parent participation is low. In addition, professional services are
not readily available in rural areas. One grantee stated, “We are tapped out. Even
with a waiver to 10 percent, we might not be able to expand in 1993.”

Training and Technical Assistance: Like regular Head Start grantees, migrant
grantees rely on in-house or private consultants for training needs, because they
consider the training more appropriate than that offered by HHS agencies and their
contractors. Although grantees have attended nationally-sponsored training, they
believe that State and local training agencies, school districts, private consultants, and
consortiums best seine their needs, because they better understand how to serve
migrant families in their areas. Grantees believe that ACF training is most useful
when it deals with ACF processes, rather than service delivery. Migrant grantees also
mentioned that they frequently do not have enough time to train staff because of their
long program hours and short program year. One grantee is considering closing a
center briefly during the school year to conduct staff training.

During the first 3 years of expansion, the grantees were able to overcome their
problems with facilities, transportation, staffing, matching funds, and training and
technical assistance. A couple of grantees, however, described lengthy delays meeting
expansion goals and expressed concerns about expansion’s effect on staff morale.
Also, some grantees anticipate that these problems will become more pronounced with
future expansions.




                                            11

GRANTEES ARE CONCERNED THAT ONGOING AND FUTURE CHANGES

IN THE NATURE OF MIGRANT WORK MAY HINDER THEIR ABILITY

TO SERVE MIGRANT FAMILIES


The nature of migrant work has changed over time because of mechanization and new

job opportunities. Some migrants now work in fisheries or canneries, although the

majority still work in field crops. The grantees we visited are concerned that these

families will be excluded from participating in Head Start in the future, because they

do not meet the regulatory definition of “migrant.” They argued that these families

should continue to receive Head Start services. One grantee explained the problem:


       Most of the migrant families we serve now have jobs working in the food
       processing plants. We’re concerned that these people may not qualify
       for migrant Head Start in the future. The manager of the processing
       plant told me that if it were not for the migrants, he would not be able
       to operate his plant. And these families are experiencing the same
       problems and issues as families working in the fields.

Grantees expressed concerns about service agencies that use a different definition of
“migrant.” Migrant health and education agencies use different eligibility rules than
migrant Head Start. One grantee commented, “Various definitions of migrant by
different agencies tend to break families apart into bureaucratic pieces. If we all
worked together, the whole would be greater than the sum of the parts.”

SAMPLED GRANTEES CIT’ED PROBLEMS WITH THE ON-SJT’E REVIEW
PROCESS, THE STATISTICAL REPORTING REQUIREMENTS,  AND THE
MIGRANT PROGRAMS BRANCH

All six grantees provided specific details about problems with the Migrant Programs
Branch’s on-site review (OSPRI) process, difficulties completing ACF’S Program
Information Report (PIR), and communication problems with the Migrant Programs
Branch.

Granteesdescribedcon.a  k the OSPMprocess and complainedabout the kzckof
timelyfeedback concemhg OSP~findings

A majority of the six grantees expressed frustration with OSPRI teams who they
believed were unfair, biased, or “out to find something.” According to the Migrant
Programs Branch, some of the frustration may have resulted from the vague
performance requirements and the Branch’s recent attempts to provide more direct
oversight of migrant programs.

The OSPRI review teams include staff from other Head Start grantees as well as staff
from the Migrant Programs Branch. The grantees we intemiewed said that OSPRI
team members often have preconceived notions about how a migrant Head Start
program should be administered, based on the way they operate their own programs.


                                           12
This occurred despite instructions from the Migrant Programs Branch to OSPRI team
members emphasizing that they “must understand there are several ways and styles of
meeting the Performance Standards,” One grantee explained, “The OSPRI team
members say ‘We don’t do it this way at our center.’” In addition, two grantees
claimed that the OSPRI teams either lacked knowledge about the performance
standards or did not understand the challenges of seining migrants.

Grantees also believe that delays receiving OSPRI reports and feedback cause
uncertainty about whether they’re complying with ACF’S performance requirements.
One grantee stated, “We still haven’t received a reply to our response to our
1990 OSPRI. We don’t know whether or not we’re on the right track with our
improvement plan.”

%   PIR rnuynot to be an ~ective informationgatheringtool f~ rni~nt Head Start

The OIG report entitled “Evaluating Head Start Expansion through Performance
Indicators” (OEI-09-91-O0762) found that ACF’S directions for completing the PIR
sometimes conflict with the performance standard requirements. Migrant grantees
offered other criticisms about the substance and timing of the PIR. In their opinion,
the report does not measure quality, and the timing is unrealistic.

Grantees believe that if they are going to complete   a PIR, it should be tailored to

migrant programs.     They contend that certain data, such as student-teacher   ratios and

average daily attendance, are not applicable to migrant programs because of

enrollment fluctuation and the children’s ages. Grantees also believe that the PIR

does not measure program quality. One grantee summarized, “The PIR does not

reflect what we do. It only says that we provided a service, but it does not address the

quality of the service provided.”


Four grantees expressed frustration with the timing of the PIR. The ACF requires
grantees to submit the PIR in May, which is the end of the program year for regular
Head Start. This is unrealistic for many migrant grantees, since they often administer
summer programs, and May is in the beginning or middle of their school year.
Therefore, these grantees may submit PIR data that is incomplete or misleading,
because it (1) represents only a small part of their program year, (2) is derived from
parts of two different school years, or (3) represents services provided during the
previous school year which may have ended several months before.

Some granteesreprt comrnunicationproblemswiththe MigrantIYogramsBranch

While most grantees complimented the enthusiasm of the Migrant Programs Branch
staff, they complained about communication lapses, the inaccessibility of staff, and
delays in funding approvals. Although grantees believe that the Migrant Programs
Branch has improved under its current leadership, they have trouble communicating
with staff on a day-to-day basis. Grantees frequently complained about the
inaccessibility of Migrant Programs Branch staff when immediate technical assistance


                                            13

or approval for operating decisions is needed. At any given time, most or all of the
staff may be unreachable, because they are conducting on-site reviews, “A big
problem has been getting approval for renovations,” said one grantee director. “We’ve
been delayed 2 to 3 months. We try to call, but their voicemail is often full, because
they’re always in the field conducting on-site reviews.”




                                         14

                    RECOMMENDATION

THE ACF SHOULD INCLUDE PROBLEMS SPECIFIC TO THE MIGRANT
PROGRAM IN THE REVIEW OF HEAD START’S MANAGEMENT

In the OIG report “Evaluating Head Start Expansion through Performance Indicators,”
we recommended that the Secretary convene a task force to review ACF’S
management of the Head Start program. On June 11, 1993, the Secretary appointed
the Advisory Committee on Head Start Quality to conduct an in-depth study of the
Head Start program with particular attention to issues identified in the OIG reports
“Head Start Expansion: Grantee Experiences” and “Evaluating Head Start Expansion
through Performance Indicators.” The Secretary asked the Advisory Committee, which
is chaired by the Assistant Secretary for Children and Families, to develop
recommendations to improve and strengthen the program in a time of expansion.

As a result of this inspection, we recommend that the Advisory Committee include
migrant Head Start in the examination. Because the migrant program is unique, the
review also should:

      determine whether separate performance      standards for migrant programs
      would be appropriate,

       assess the cost and potential impact of the proposed infant and toddler
       program standards on both ACF and grantees,

       determine whether funding and expansion cycles should be tailored to migrant
       grantees,

       address the changing role of migrant work and whether changes in ACF’S
       definition of “migrant” are necessary,

       determine when it would be appropriate    for migrant grantees to purchase
       property,

       evaluate the timing of the PIR process and the accuracy of PIR data,

       evaluate the role and effectiveness of the Migrant Programs Branchj and

       identify other areas where ACF should grant flexibility.- to grantees who are
       experiencing difficulties serving migrant families.

AGENCY COMMENTS

We received written comments on the draft report from ACF. The ACF noted that
the migrant program would be reviewed as part of the overall review of the Head


                                           15
Start program ordered by the Secretary.   The full text of ACF’S comments appears in
the appendix.

OIG RESPONSE

In response to ACF’S comments, we conducted follow-up interviews with grantees to
obtain additional information about their facilities. The final report incorporates
information from the follow-up interviews, including more detail about the facility
purchase issue. We also made technical corrections to the findings, clarified that the
report is based on the grantees’ opinions and experiences, and modified the
recommendation to ensure that it more accurately describes the issues that the Head
Start task force should study. Specifically, we now recommend that the task force (1)
examine what the Federal government (rather than ACF alone) could do to tailor
funding streams to migrant grantees and (2) assess how the Head Start facility
purchase provisions should apply to migrant grantees. We still believe that ACF’S
regulation and oversight of migrant grantees using performance standards and funding
cycles that are not tailored to them causes problems.




                                          16

                         APPENDIX


                            ACF COMMENTS


       DEPARTMENT OF HEALTH& HUMAN SSRVICES

                          . .. ... ..- .,,,,,- -’.. .
                                 !v~R-_ w ,; :; :


                           .“ 3J                    ‘
                             ! i

                              .. ~              i       AOMIM67RATIOW FOR CMILDREN AMI FAMILIES
                           ‘i~~~   ~.9~      k
                                             ~’         OfIlcOof UwAeaktanl SwfOW.Sui!e~
                                                        3?0 LEnlaIU Fmmsnadq S.W.
                                                        wsehk@on,   D.c.ZOU7
                                   ‘~i        OEI IX
                                         . .-.—                  1(I
                                                                 mm
             AupEt2,1993                                         DIG.AB        —




                       Ii!?iiz.
To:



FROM:        !!!!!!:%i+~”:y’
             Actina tisistant ec etsrv
               for‘Childrenand Famili&3
                                                                   ,,­

SUBJECT:     Comments on Draft Office of Inspector General Report on
             Uigrant Head Start Grantees (OEI-09-91-00761)

Thank you for the opportunity to review the draft Office of
inspectorGeneral  report entitled ‘WXi.grant
                                           Head Start Grantees:

Perspectives and Challenges.W

We believe that the report highlights some of the unique
conditions facing Migrant Head Start grantees and sone of the
problems they face because of these conditions. For example, we
recognize that the changing nature of migrant work must be
addressed as Head Start expands, and that migrant grantees, like
nany Head Start programs, have experienced problems dealing with
the rapid expansion of Head Start.
he with your report *Head Start Bxpansion: Grantee Experiencesn

(OEI-09-91-00760),however, we have concerns about the way in
which the information for the report was gathered end the
presentation of some of the findings. The general aomments which
we made on the methodology of that report apply to this reportas
well. AS we did then,we now suggest‘thatthe reportprovide
more descriptive information on the methodology used so that the
reader will be aware that, in some instancee, opinions or
‘predictions*were elicited from the interviewees* (March 15,
1993 memorandum from Laurence J. Love to Bryan B. Mitchell,
included as Appendix A to the above-cited report, page 2). “me
result of the methodology used is a series of grantee opinions
which are not balanced by information provided by program
officials which would put those opinions in context.   certain of
the grantee opinions reported are not factually based, and some
reflect self-interest on the part of the grantee or delegate
agency.

In addition to the general comments noted above, we have several                           .
specific comments, as follows:
                                           6E :2 ;:.j<- J:; Q.;




                                             A-1

Page 2 - Bryan B. Mitchell


    �	   With respect to your finding that some Head Start
         PerformanceStandardsmay not be appropriatefOr
         �igrant granteee,the Migrant Programs Branch and the
         Head Start Bureau work plans for this year include a
         review of selected Performance Standards whioh will
         consider the comments of migrant grantees. While we
         recognize that some grantees aay have difficulties
         meeting the PerformanceStandards,we do not envision
         dilution of the Performance Standards for migrant
         grantees. Rather, we will focus training ind technical
         assistanceefforts on those granteeswhich have
         difficultymeeting the Performance Standards.
    �	   On page 8, with regard to concerns about pending
         regulations,the infant and toddler standardsare in
         draft form and migrant programstviews are being
         actively consideredin developingthe final rule.
    �	   On pages 8 to 10, concerningthe funding oycla and
         demographicdata, we have several comments. Funding
         for the Higrant Head Start programs comes from the
         appropriation for all Head Start programs under the
         Head Start Act in an annual cycle determined by the
         Bxecutive Branch and the Congress. The finding
         concerning funding and planning is not clear, since
         migrant grantees have considerablynore time to plan
         than other grantees because their services do not begin
         until the Spring months. (Ironically,on page 9 you
         include a comment from a grantee which complains of

         being given too much tine to plan.) With respect to

         demographicdata, we are funding a study which will

         improve our data on migrant children. However, it

         should be noted that all Head Start grantees are

         responsiblefor obtainingdemographicdata for their

         particular service areas. National data are important

         to provide a frameworkfor assessing the unmet need for

         Migrant Head Start services,but no outside, broad

         survey will substitutefor local data collectedby

         grantees.

    �	   On pages 9 and 10, the discussionof facilities h
         lacking in context and misleading. The purchase of
         facilitiesby migrant granteeswould, in most
         instances,be inconsistentwith the nature and aim of
         the Migrant Head Start program. Migrant streams change
         due to changes in weather, growing areas, crops and
         urbanizationpatterns. Furthermore,the use of




                              A-2

Page 3 - Bryan B. Mitchell


          portable modulars has.been wall supported by the
          Nigrant Branoh. Since Ootober 1991, the purohase of
          approximately 20 portables has been approved.
     9�   On page 12, the discussion of monitoring teams also
          lacks context andcontainsunsupported    statements. For
          SXample, the repOrt states that ‘A BSjOdty   of the SiX
          grantees expressed frustration and anger with OSpRI
          teams who they believed were unfair, biased, or ‘out to
          find something.tw Monitoring is done to measure a
          granteets compliance with the performance Standards and
          other applicable policies and to find if the grantee is
          meeting the Performance Standards and properly
          administering the program. It is also not true that
          Membersof monitoring teams lack knowledge about the
          Performance Standards or do not understmd the
          challenges of serving migrants. Virtually all *rS
          of monitoring teams are qualified staff from other
          migrant programs, ohosen for their knowledge of and
          experience lnm@rantHeadS tart.       Inaddit~on,  me
          Branch has developed and distributed   to programs a
          manual governing the compliance reviews, and has
          carefully   trained   selected   peer reviewers.
     �	   The points made about the timing of thePIR (page 12)
          are valid, and the Head Start Bureau has stated in this
          yearle work plan its intentionto  solve this problem by
          adjusting the reporting dates for migrant program data.
     �	   With regard to the recommendations, we note that the
          migrant program will be reviewed as part of the overall
          review of the Head Start program ordered by the
          Secretary.


Thank you again for the opportunity to comment on this draft
report.  If you have any questions on this memorandum, please
contact Joseph Mottola on 205-8347.




                                   A-3

